Audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants
 to the Escondido Police Department,  California
GR-90-01-004 
January 2001
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Escondido, California Police Department (EPD).  The purpose of the grants is to enhance community policing.  The EPD was awarded a total of $890,202 to hire 8 sworn officers, redeploy the equivalent of 7.7 existing full-time officers from administrative duties to community policing, and to train three military veterans hired with COPS grants to perform community policing.

We reviewed the EPD's compliance with eight essential grant conditions.  We found the grantee's budgeting, hiring, retention, redeployment, and community policing activities to be acceptable.  However, we found weaknesses in areas of local matching funds, reimbursement requests, and grantee reporting as identified below.  As a result, we question $43,773. 1

For the AHEAD grant, the EPD was reimbursed 61 percent of its allowable costs when it was only entitled to be reimbursed for 52 percent of allowable costs; therefore, we are questioning $21,918 as unallowable.

	For the UHP Supplemental grants, the EPD charged unallowable overtime/comp-time, uniform allowances, and miscellaneous expenses totaling $21,855 to the grants.

	Several of the EPD's status reports were either not accurate, not timely, or not filed.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.



Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.